No. 20-1786

 

IN THE
Supreme Court of the United States

JOANNE TROESCH, ET AL.,

Petitioners,
Vv.

CHICAGO TEACHERS UNION, LOCAL UNION NO. 1, AMERICAN
FEDERATION OF TEACHERS, ET AL.,

Respondents.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit

CERTIFICATE OF COMPLIANCE

Undersigned counsel, a member of the Bar of this Court, certifies pursuant to
Supreme Court Rule 33.1(h) that the BRIEF INOPPOSITION FOR RESPONDENT
CHICAGO TEACHERS UNION, LOCAL UNION NO. 1, AMERICAN FEDERATION
OF TEACHERS complies with the typeface requirement of Supreme Court Rule
33.1(b), being prepared in Century Schoolbook 12 point for the text and 10 point for
the footnotes, and the brief contains 4,237 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d).

JOSHUA B. SHIFFRIN

(Counsel of Record)
BREDHOFF & KAISER, P.L.L.C.
805 15th Street N.W.
Suite 1000
Washington, DC 20005
202.842.2600
jshiffrinl@bredhoff.com

Counsel for Respondent Chicago
Teachers Union, Local Union No. 1,

American Federation of Teachers
Executed on September 27, 2021
